OIG Investigative Reports, Former Federal Computer Security Specialist Sentenced for Hacking Department of Education Computer
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. DEPARTMENT OF JUSTICE
Press Release
For Immediate Release
May 12, 2006  www.usdoj.gov
CRM
(202) 514-2008
TDD (202) 514-1888
Former Federal Computer Security Specialist Sentenced
for Hacking Department of Education Computer
WASHINGTON, DC – Kenneth Kwak, 34, of Chantilly, Va., was
sentenced today by U.S. District Judge Royce Lamberth to five months in
prison followed by five months of home confinement, based upon Kwak’s
conviction for gaining unauthorized access to and obtaining information
from a Department of Education computer system, the Department of Justice
announced today.
Kwak’s sentence results from his March 2006 guilty plea to one count
of intentionally gaining unauthorized access to a government computer
and thereby obtaining information. In his plea, Kwak, who had been working
in an office responsible for ensuring the security of Department of Education
computer systems, admitted that he had placed software on a supervisor's
computer which enabled him to access the computer’s storage at will. He
later used that access on numerous occasions to view his supervisor’s
intra-office and Internet email as well as his other Internet activity
and communications; Kwak then shared this information with others in his
office.
As part of today’s sentence, Judge Lamberth also ordered Kwak to pay
restitution to the U.S. government in the amount of $40,000 and serve
a three-year term of supervised release. The five months of home confinement
with electronic monitoring was ordered as a special condition of this
term of supervised release.
The matter was investigated by the Computer Crime Investigations Division
of the Department of Education Inspector General’s Office. The case was
prosecuted by Senior Counsel William Yurek, cross-designated as a Special
Assistant U.S. Attorney in the U.S. Attorney’s Office for the District
of Columbia, with assistance by Trial Attorney Howard Cox, both of the
Computer Crime and Intellectual Property Section of the Criminal Division.
The prosecution was part of the “zero-tolerance policy” recently adopted
by the U.S. Attorney’s Office regarding intrusions into U.S. government
computer systems.
06-285
Printable view
Share this page
Last Modified: 05/17/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov